No.

IN THE
SUPREME COURT OF THE UNITED STATES

Damian Cruz - PETITIONER,
vs.
Glenda I. Lebron Vazquez, RESPONDENT.

PROOF OF SERVICE
I Damian Cruz, the petitioner, declare that on June 11th, 2021 as
required by Supreme Court Rule 29.5 have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on the other party Glenda I. Lebron
Vazquez to her address on record: PO Box 667, Cidra, P.R. 00739 via United
States Postal Services first’dass postage prepaid certificate mail no.
70201810000147083194. I Damian Cruz, the petitioner, declare under
penalty of penury that the foregoing is true and correct.
Executed on June 11th, 2021 by the petitioner Damian Cruz.
Signature:
Damian Cruz^PedHoner as Prose

